      DEPARTMENT OF HEALTH & HUMAN SERVICES                            Office of Inspector General

                                                                       Washington, D.C. 20201




February 10, 2011

TO:           Donald M. Berwick, M.D.
              Administrator
              Centers for Medicare & Medicaid Services


FROM:         /Daniel R. Levinson/
              Inspector General


SUBJECT:      Review of Medicare Claims for Home Blood-Glucose Test Strips and Lancets—
              Durable Medical Equipment Medicare Administrative Contractor for
              Jurisdiction B (A-09-08-00044)


Attached, for your information, is an advance copy of our final report on Medicare claims for
home blood-glucose test strips and lancets for the durable medical equipment Medicare
administrative contractor for Jurisdiction B. We will issue this report to National Government
Services, Inc., within 5 business days.

If you have any questions or comments about this report, please do not hesitate to call me, or
your staff may contact George M. Reeb, Assistant Inspector General for the Centers for
Medicare & Medicaid Audits, at (410) 786-7104 or through email at George.Reeb@oig.hhs.gov
or Lori A. Ahlstrand, Regional Inspector General for Audit Services, Region IX, at
(415) 437-8360 or through email at Lori.Ahlstrand@oig.hhs.gov. Please refer to report number
A-09-08-00044.


Attachment
     DEPARTMENT OF HEALTH & HUMAN SERVICES                                Office of Inspector General

                                                                          Office of Audit Services, Region IX
                                                                          90 – 7th Street, Suite 3-650
                                                                          San Francisco, CA 94103



February 17, 2011

Report Number: A-09-08-00044

Ms. Sandra Miller
President
National Government Services, Inc.
8115 Knue Road
Indianapolis, IN 46250-1936

Dear Ms. Miller:

Enclosed is the U.S. Department of Health & Human Services (HHS), Office of Inspector
General (OIG), final report entitled Review of Medicare Claims for Home Blood-Glucose Test
Strips and Lancets—Durable Medical Equipment Medicare Administrative Contractor for
Jurisdiction B. We will forward a copy of this report to the HHS action official noted on the
following page for review and any action deemed necessary.

The HHS action official will make final determination as to actions taken on all matters reported.
We request that you respond to this official within 30 days from the date of this letter. Your
response should present any comments or additional information that you believe may have a
bearing on the final determination.

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that OIG post its publicly
available reports on the OIG Web site. Accordingly, this report will be posted at
http://oig.hhs.gov.

If you have any questions or comments about this report, please do not hesitate to call me, or
contact Jessica Kim, Audit Manager, at (323) 261-7218, extension 702, or through email at
Yun.Kim@oig.hhs.gov. Please refer to report number A-09-08-00044 in all correspondence.

                                             Sincerely,



                                             /Lori A. Ahlstrand/
                                             Regional Inspector General
                                               for Audit Services


Enclosure
Page 2 – Ms. Sandra Miller


Direct Reply to HHS Action Official:

Ms. Nanette Foster Reilly
Consortium Administrator
Consortium for Financial Management & Fee for Service Operations
Centers for Medicare & Medicaid Services
601 East 12th Street, Room 235
Kansas City, MO 64106
Department of Health & Human Services
           OFFICE OF
      INSPECTOR GENERAL



REVIEW OF MEDICARE CLAIMS FOR
    HOME BLOOD-GLUCOSE
   TEST STRIPS AND LANCETS

 DURABLE MEDICAL EQUIPMENT
  MEDICARE ADMINISTRATIVE
      CONTRACTOR FOR
       JURISDICTION B



                      Daniel R. Levinson
                       Inspector General

                        February 2011
                        A-09-08-00044
                        Office of Inspector General
                                          http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health & Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at http://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                   EXECUTIVE SUMMARY

BACKGROUND

Pursuant to sections 1832(a)(1), 1861(s)(6), and 1861(n) of the Social Security Act, Medicare
Part B covers home blood-glucose test strip and lancet supplies (test strips and lancets) that
physicians prescribe for diabetics. The Centers for Medicare & Medicaid Services (CMS)
contracts with four durable medical equipment Medicare administrative contractors (DME
MAC) to process and pay Medicare Part B claims for test strips and/or lancets. The amount
allowed for payment is equal to the lesser of the Medicare fee schedule amount or the amount
charged by a DME supplier. Medicare pays the beneficiary or the supplier the amount allowed
for payment, less the beneficiary share (i.e., deductibles and coinsurance).

The quantity of test strips and lancets that Medicare covers depends on the beneficiary’s usual
medical needs. Medicare utilization guidelines allow up to 100 test strips and 100 lancets every
month for insulin-treated diabetics and every 3 months for non-insulin-treated diabetics. To be
reimbursed for a claim for any quantity of test strips and/or lancets, the DME supplier is required
to maintain (1) a physician order containing the items to be dispensed, the specific frequency of
testing, and the physician’s signature with the date and (2) proof of delivery. The supplier may
refill an order only when the beneficiary has nearly exhausted the previous supply and
specifically requests the supplies to be dispensed.

Additional requirements apply for reimbursement of a claim for a quantity of test strips and/or
lancets that exceeds the utilization guidelines (high utilization claim). Specifically, there must be
documentation in the beneficiary’s medical records supporting the specific reason for the
additional supplies and documentation in the physician’s or supplier’s records supporting the
actual frequency of testing. Further, the physician must have seen the patient and evaluated the
patient’s diabetic control within 6 months before ordering the quantity of supplies in excess of
the guidelines.

National Government Services, Inc. (NGS), the DME MAC for Jurisdiction B, allowed for
payment $297 million in Medicare Part B claims for test strips and/or lancets for calendar year
(CY) 2007. We focused our review on high utilization claims. To identify these claims, we
analyzed the information submitted by DME suppliers on the claim forms. We did not verify the
accuracy of the claim information. We estimated that NGS allowed for payment $92 million for
the claims that we identified as high utilization claims.

OBJECTIVE

Our objective was to determine whether high utilization claims for test strips and/or lancets that
NGS allowed for payment were supported in accordance with Medicare documentation
requirements.




                                                  i
SUMMARY OF FINDINGS

Of the 100 sampled claims for test strips and/or lancets, 17 claims were supported in accordance
with Medicare documentation requirements. However, the remaining 83 claims were not
supported because each claim had one or more deficiencies:

   •   The quantity of supplies that exceeded utilization guidelines was not supported with
       documentation indicating the specific reason for the additional supplies, the actual
       frequency of testing, or the treating physician’s evaluation of the patient’s diabetic
       control within 6 months before ordering the supplies (61 claims).

   •   There was no documentation supporting that refill requirements had been met
       (36 claims).

   •   Physician orders were missing or incomplete (24 claims).

   •   Proof-of-delivery records were missing (seven claims).

For CY 2007, based on our sample results, we estimated that NGS inappropriately allowed for
payment approximately $56.2 million in claims for test strips and/or lancets that we identified as
high utilization claims. Of this amount, we estimated that NGS inappropriately paid
approximately $42.2 million to DME suppliers.

NGS made improper payments to DME suppliers because NGS did not have controls to ensure
that claims for test strips and/or lancets complied with certain Medicare documentation
requirements. Specifically, NGS did not have system edits to identify, and review when
necessary, high utilization claims. In addition, NGS did not have system edits to identify claims
with overlapping service dates for the same beneficiary. This billing pattern caused NGS to
allow payment for claims when beneficiaries had not nearly exhausted previously dispensed test
strips and/or lancets.

NGS could have saved Medicare an estimated $42.2 million for CY 2007 if it had had controls to
ensure that claims for test strips and/or lancets complied with certain Medicare documentation
requirements.

RECOMMENDATIONS

To help achieve potential savings for the Medicare program in future years, we recommend that
NGS:

   •   implement system edits to identify high utilization claims for test strips and/or lancets
       and work with CMS to develop cost-effective ways of determining which claims should
       be further reviewed for compliance with Medicare documentation requirements;

   •   implement system edits to identify claims for test strips and/or lancets that have
       overlapping service dates for the same beneficiary; and



                                                ii
   •   enforce Medicare documentation requirements for claims for test strips and/or lancets by
       (1) identifying DME suppliers with a high volume of high utilization claims,
       (2) performing prepayment reviews of those suppliers, and (3) referring them to the
       Office of Inspector General or CMS for further review or investigation when necessary.

AUDITEE COMMENTS

In its written comments on our draft report, NGS agreed with our recommendations and provided
information on actions that it had taken or planned to take to address the recommendations.
NGS’s comments are included in their entirety as Appendix E.




                                              iii
                                                  TABLE OF CONTENTS

                                                                                                                                      Page

INTRODUCTION......................................................................................................................1

          BACKGROUND .............................................................................................................1
              Medicare Program ................................................................................................1
              Durable Medical Equipment ................................................................................1
              National and Local Coverage Determinations .....................................................1
              Home Blood-Glucose Test Strip and Lancet Supplies ........................................2
              National Government Services, Inc. ....................................................................3

          OBJECTIVE, SCOPE, AND METHODOLOGY ...........................................................3
               Objective ..............................................................................................................3
               Scope ....................................................................................................................3
               Methodology ........................................................................................................4

FINDINGS AND RECOMMENDATIONS ............................................................................5

          UNSUPPORTED CLAIMS FOR TEST STRIPS AND/OR LANCETS ........................5
               Lack of Documentation for Quantities in Excess of Utilization Guidelines .......5
               Lack of Documentation To Support Refills of Supplies ......................................7
               Missing or Incomplete Physician Orders ............................................................7
               Missing Proof-of-Delivery Records .....................................................................8

          EFFECT OF UNALLOWABLE CLAIMS .....................................................................9

          LACK OF CONTROLS ..................................................................................................9

          RECOMMENDATIONS .................................................................................................9

          AUDITEE COMMENTS...............................................................................................10

OTHER MATTERS ................................................................................................................10

          INCORRECT MODIFIER.............................................................................................10

          INCORRECT UNIQUE IDENTIFICATION NUMBER .............................................10

APPENDIXES

          A: FRAME SAMPLE DESIGN AND METHODOLOGY

          B: FRAME SAMPLE RESULTS AND ESTIMATES




                                                                    iv
C: ERROR SAMPLE DESIGN AND METHODOLOGY

D: ERROR SAMPLE RESULTS AND ESTIMATES

E: AUDITEE COMMENTS




                           v
                                              INTRODUCTION

BACKGROUND

Medicare Program

The Medicare program, established by Title XVIII of the Social Security Act (the Act) in 1965,
provides health insurance coverage to people aged 65 and over, people with disabilities, and
people with end-stage renal disease. The Centers for Medicare & Medicaid Services (CMS)
administers the Medicare program.

Durable Medical Equipment

Pursuant to sections 1832(a)(1), 1861(s)(6), and 1861(n) of the Act, Medicare Part B covers
durable medical equipment, prosthetics, orthotics, and supplies (DMEPOS). DMEPOS includes
items such as wheelchairs, hospital beds, oxygen tents, and medical supplies. Section
1862(a)(1)(A) of the Act requires that, to be paid by Medicare, a service or an item be reasonable
and necessary for the diagnosis or treatment of illness or injury or to improve the functioning of
a malformed body member.

As a result of the Medicare Prescription Drug, Improvement, and Modernization Act of 2003,
CMS contracted with four durable medical equipment Medicare administrative contractors
(DME MAC) to process and pay Medicare Part B claims for DMEPOS. Pursuant to the
Statement of Work, the DME MACs’ responsibilities included, but were not limited to,
(1) receiving Medicare Part B claims from DME suppliers and beneficiaries within their
jurisdictions, (2) performing edits 1 on these claims to determine whether they were complete and
reimbursable, (3) calculating Medicare payment amounts and remitting payments to the
appropriate parties, and (4) educating DME suppliers on Medicare requirements and billing
procedures.

The Statement of Work was modified to require the DME MACs to perform medical reviews as
of March 1, 2008. Medical reviews include the collection of information and review of medical
records to ensure that Medicare pays only for services that meet all Medicare coverage, coding,
and medical necessity requirements. The amount allowed for payment is equal to the lesser of
the Medicare fee schedule amount or the amount charged by a DME supplier. Medicare pays the
beneficiary or the supplier the amount allowed for payment, less the beneficiary share (i.e.,
deductibles and coinsurance).

National and Local Coverage Determinations

National Coverage Determinations (NCD) describe the circumstances for Medicare coverage
nationwide for specific medical service procedures or devices, including DMEPOS, and


1
 An edit is programming within the standard claims processing system that selects certain claims; evaluates or
compares information on the selected claims or other accessible sources; and, depending on the evaluation, takes
action on the claims, such as paying them in full, paying them in part, or suspending them for manual review.


                                                         1
generally outline the conditions under which a service or device is considered covered. MACs
are required to follow NCDs.

A Local Coverage Determination (LCD) is a decision by a Medicare contractor, such as a MAC
or program safeguard contractor, whether to cover a particular item or service on a
contractorwide basis pursuant to section 1862(a)(1)(A) of the Act. Medicare contractors may
establish or adopt LCDs when there is no NCD or when they need to further define an NCD.
LCDs must be consistent with all statutes; rulings; regulations; and national coverage, payment,
and coding policies.

Home Blood-Glucose Test Strip and Lancet Supplies

Pursuant to sections 1832(a)(1), 1861(s)(6), and 1861(n) of the Act, Medicare Part B covers
home blood-glucose test strip and lancet supplies (test strips and lancets) that physicians
prescribe for diabetics, whether they are insulin-treated or non-insulin-treated. The patient, using
a disposable sterile lancet, draws a drop of blood, places it on a test strip, and inserts the strip
into a home blood-glucose monitor to obtain a reading of the blood-sugar level. DME suppliers
provide test strips and lancets to beneficiaries.

The NCD for home blood-glucose monitors specifies coverage of test strips and lancets for
patients who meet certain conditions and use home blood-glucose monitors to better control their
glucose levels by frequently checking those levels and appropriately contacting their attending
physicians for advice and treatment. 2 However, the NCD does not specify utilization guidelines
and documentation requirements for test strips and lancets.

To establish utilization guidelines and documentation requirements for test strips and lancets,
DME MACs either established or adopted LCDs, which state that the quantity of test strips and
lancets that Medicare covers depends on the beneficiary’s usual medical needs. The LCD for
each DME MAC further states that Medicare covers up to 100 test strips and 100 lancets every
month for insulin-treated diabetics and every 3 months for non-insulin-treated diabetics. 3

To be reimbursed for a claim for any quantity of test strips and/or lancets, the DME supplier is
required to maintain (1) a physician order containing the items to be dispensed, the specific
frequency of testing, and the physician’s signature with the date and (2) proof of delivery. The
supplier may refill an order only when the beneficiary has nearly exhausted the previous supply
and specifically requests the supplies to be dispensed.

Additional requirements apply for reimbursement of a claim for a quantity of test strips and/or
lancets that exceeds the utilization guidelines (high utilization claim). Specifically, there must be
documentation in the beneficiary’s medical records supporting the specific reason for the
additional supplies and documentation in the physician’s or supplier’s records supporting the
actual frequency of testing. Further, the physician must have seen the patient and evaluated the

2
 Medicare National Coverage Determinations Manual, Pub. No. 100-03, chapter 1, section 40.2, effective
June 19, 2006.
3
    Medicare considers 50 test strips as 1 unit and 100 lancets as 1 unit.


                                                              2
patient’s diabetic control within 6 months before ordering the quantity of supplies in excess of
the guidelines.

National Government Services, Inc.

National Government Services, Inc. (NGS), a wholly owned subsidiary of WellPoint, Inc., has
been the DME MAC for Jurisdiction B since January 1, 2007. CMS awarded a DME MAC
contract for Jurisdiction B to AdminaStar Federal, Inc. (AdminaStar), on January 6, 2006. The
operations of AdminaStar and a few other companies were combined to form NGS. NGS’s main
office is located in Indianapolis, Indiana, through which it serves Medicare beneficiaries residing
in Illinois, Indiana, Kentucky, Michigan, Minnesota, Ohio, and Wisconsin. 4

NGS allowed for payment $297 million in Medicare Part B claims for test strips and/or lancets
for calendar year (CY) 2007.

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether high utilization claims for test strips and/or lancets that
NGS allowed for payment were supported in accordance with Medicare documentation
requirements.

Scope

We focused our review on high utilization claims for test strips and/or lancets for CY 2007. To
identify these claims, we analyzed the information submitted by DME suppliers on the Medicare
claim forms. We did not verify the accuracy of the claim information. 5 We estimated that NGS
allowed for payment $92 million for the claims that we identified as high utilization claims. (See
Appendixes A and B.)

We did not review the overall internal control structure of NGS. Rather, we limited our review
of internal controls to those that were significant to the objective of our audit.

We performed our review from July 2008 to July 2010 and conducted fieldwork at NGS’s office
in Indianapolis, Indiana.




4
  AdminaStar temporarily served as the DME MAC for Virginia and West Virginia because of delays in awarding
the DME MAC contract for Jurisdiction C. After this contract was awarded and implemented in June 2007, these
two States became part of Jurisdiction C.

5
  During our audit, we determined that some claims we had identified as high utilization claims were in fact within
the Medicare utilization guidelines based on our review of the beneficiaries’ medical records and additional analysis
of the claim information.


                                                          3
Methodology

To accomplish our objective, we:

    •   reviewed applicable Federal laws, regulations, and guidance;

    •   reviewed the LCD adopted by NGS;

    •   reviewed the Statement of Work for NGS prepared by CMS for the administration
        of DMEPOS;

    •   reviewed NGS’s policies and procedures for processing Medicare claims for test
        strips and/or lancets;

    •   interviewed NGS officials to obtain an understanding of its Medicare claim
        processing procedures for test strips and/or lancets;

    •   obtained from the CMS National Claims History (NCH) files NGS’s Medicare
        Part B claims for test strips and/or lancets with service dates ending in CY 2007
        and removed any service line in which the amount allowed for payment was less
        than the lowest nationwide Medicare Part B fee schedule amount in CY 2007
        ($32.74 for test strips and $10.83 for lancets);

    •   created a sampling frame from the NCH data and randomly selected a sample of
        500 Medicare beneficiaries to estimate the number of high utilization claims that
        NGS allowed for payment (Appendixes A and B);

    •   randomly selected a sample of 100 high utilization claims 6 to estimate the
        amounts that NGS allowed for payment and paid to suppliers for claims that were
        not supported in accordance with Medicare documentation requirements
        (Appendixes C and D);

    •   obtained medical records and other documentation from suppliers and physicians
        for the 100 sampled claims;

    •   reviewed medical records and other documentation to determine whether each of the
        100 sampled claims was supported in accordance with Medicare documentation
        requirements; and

    •   shared the results of our review with NGS.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain

6
 Of the 100 claims, 24 claims were within the Medicare utilization guidelines based on our review of the
beneficiaries’ medical records and additional analysis of the claim information.


                                                         4
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective.

                                 FINDINGS AND RECOMMENDATIONS

Of the 100 sampled claims for test strips and/or lancets, 17 claims were supported in accordance
with Medicare documentation requirements. However, the remaining 83 claims were not
supported because each claim had one or more deficiencies. For CY 2007, based on our sample
results, we estimated that NGS inappropriately allowed for payment approximately $56.2 million
in claims for test strips and/or lancets that we identified as high utilization claims. Of this
amount, we estimated that NGS inappropriately paid approximately $42.2 million to DME
suppliers.

The table below summarizes the deficiencies noted and the number of claims that contained each
type of deficiency.

                                Summary of Deficiencies in Sampled Claims

                                                                                         No. of Claims With
                            Type of Deficiency                                              Deficiencies 7
    Lack of Documentation for Quantities in Excess of Utilization                                61
    Guidelines
    Lack of Documentation To Support Refills of Supplies                                        36
    Missing or Incomplete Physician Orders                                                      24
    Missing Proof-of-Delivery Records                                                            7

NGS made improper payments to DME suppliers because NGS did not have controls to ensure
that claims for test strips and/or lancets complied with certain Medicare documentation
requirements. Specifically, NGS did not have system edits to identify, and review when
necessary, high utilization claims. In addition, NGS did not have system edits to identify claims
with overlapping service dates for the same beneficiary. This billing pattern caused NGS to
allow payment for claims when beneficiaries had not nearly exhausted previously dispensed test
strips and/or lancets.

UNSUPPORTED CLAIMS FOR TEST STRIPS AND/OR LANCETS

Lack of Documentation for Quantities in Excess of Utilization Guidelines

For a quantity of test strips and lancets in excess of the utilization guidelines, LCD L11530
requires that the treating physician document in the medical records the specific reason for the
additional supplies.

7
    The total exceeds 83 because 50 of the 83 claims contained more than 1 deficiency.



                                                           5
LCD L11530 also requires that when a DME supplier refills a physician order for a quantity of
test strips and lancets in excess of the utilization guidelines, “[T]here must be documentation in
the physician’s records (e.g., a specific narrative statement that adequately documents the
frequency at which the patient is actually testing or a copy of the beneficiary’s log) or in the
supplier’s records (e.g., a copy of the beneficiary’s log) that the patient is actually testing at a
frequency that corroborates the quantity of supplies that have been dispensed.”

Finally, LCD L11530 states that the treating physician must have evaluated the patient’s diabetic
control within 6 months before ordering the quantity of test strips and lancets in excess of the
guidelines.

For 61 of the 100 sampled claims, the beneficiary’s medical records did not have the required
documentation to support a quantity of supplies in excess of the guidelines.

No Documentation of Specific Reason for Additional Supplies

For 56 of the 61 claims, the beneficiary’s medical records did not indicate a specific reason for
the additional supplies. For example, for one claim, a supplier provided a copy of a physician
order, which was prepared by the supplier on a preprinted form and signed by the physician,
indicating a testing frequency of six times a day for an insulin-treated patient. The utilization
guidelines for an insulin-treated patient specify a quantity of supplies indicating a testing
frequency of approximately three times a day. The patient’s medical records indicated that the
patient was treated with insulin but did not indicate a specific reason for the additional supplies.

No Documentation of Actual Testing Frequency

For 30 of the 61 claims, neither the physician’s nor the supplier’s records contained
documentation supporting that the beneficiary was actually testing at a “frequency that
corroborates the quantity of supplies that have been dispensed.” For example, for one claim, a
DME supplier dispensed 7 units of test strips for an insulin-treated patient, which would be the
quantity for a testing frequency of approximately 12 times a day. This testing frequency
corresponded to the physician order. However, neither the physician nor the supplier maintained
records documenting that the patient was actually testing 12 times a day, such as a specific
narrative statement from the physician or a copy of the beneficiary’s log.

No Documentation of Treating Physician’s Evaluation of Patient’s Diabetic Control

For 2 of the 61 claims, the beneficiary’s medical records did not indicate that the physician
evaluated the patient’s diabetic control within 6 months before ordering the quantity of supplies
in excess of the utilization guidelines. For example, a DME supplier submitted a claim for test
strips dispensed on February 23, 2007, to a non-insulin-treated patient based on a physician order
signed April 11, 2006. The physician order indicated a testing frequency of four times a day,
which was in excess of the guidelines. However, the patient’s medical records showed that the
physician was a cardiologist who had performed heart-related procedures for the beneficiary in
February 2006 before the order date. The medical records did not indicate that the physician had
treated the patient for a diabetic condition or had evaluated the patient’s diabetic control.



                                                  6
Lack of Documentation To Support Refills of Supplies

The Medicare Program Integrity Manual (the Manual), Pub. No. 100-08, chapter 4,
section 4.26.1, states that, when a DME supplier refills an original order, the supplier must
contact the beneficiary before dispensing the refill. Further, the Manual states: “For subsequent
deliveries of refills, the supplier should deliver the DMEPOS product no sooner than
approximately 5 days prior to the end of usage for the current product.”

LCD L11530 states that the DME supplier may not dispense test strips and lancets until the
beneficiary has nearly exhausted the previously dispensed supplies. In addition, a beneficiary or
the beneficiary’s caregiver must specifically request the refill of test strips and lancets before the
supplier dispenses supplies to the beneficiary.

For 36 of the 100 sampled claims, suppliers did not have documentation that refill requirements
had been met.

Previously Dispensed Supplies Not Nearly Exhausted

For 29 of the 36 claims, DME suppliers dispensed test strips and/or lancets when the
beneficiaries had not nearly exhausted the previously dispensed supplies. Of the 29 claims,
12 claims had multiple suppliers that had dispensed test strips and/or lancets for the same
beneficiary with overlapping service dates. In one instance, two suppliers had billed Medicare
for claims with overlapping service dates for the same beneficiary. The beneficiary’s physician
had ordered a testing frequency of three times a day for an insulin-treated patient. The supplier
for the selected sample claim dispensed four units of test strips and submitted a claim to NGS for
service dates covering the period February 6 through May 5, 2007. In addition, a supplier
dispensed six units of test strips and submitted a claim to NGS for the same beneficiary covering
the period January 30 through April 29, 2007. NGS allowed payment for both of these claims.

Refills Not Specifically Requested

For 10 of the 36 claims, the beneficiary or the beneficiary’s caregiver had not specifically
requested the refill before the supplies were dispensed. For example, for one claim, a DME
supplier did not have documentation supporting the specific refill request from the beneficiary or
the beneficiary’s caregiver before it dispensed two units of test strips on June 8, 2007. When we
requested the documentation, the supplier stated that it did not maintain documentation
indicating that beneficiaries specifically requested refills.

Missing or Incomplete Physician Orders

Section 1833(e) of the Act requires that providers furnish DME MACs with necessary
information to receive payment for services provided to Medicare beneficiaries. The Manual,
chapter 5, section 5.2.1, requires that the DME supplier obtain an order from the treating
physician before dispensing supplies to a beneficiary. The Manual, chapter 5, sections 5.2.2 and
5.2.3, provide that when a DME supplier dispenses items based on a verbal order, the supplier
must have a written order in its records before submitting a claim to the DME MAC.



                                                  7
LCD L11530 states: “An order for each item billed must be signed and dated by the physician
who is treating the patient’s diabetes, kept on file by the supplier, and made available upon
request.” Further, the LCD requires that the order for test strips and lancets include (1) the
specific frequency of testing, (2) the treating physician’s signature, and (3) the date of the
treating physician’s signature.

For 24 of the 100 sampled claims, suppliers submitted claims when physician orders were
missing or incomplete.

Missing Physician Orders

For 13 of the 24 claims, the DME suppliers did not have written physician orders. For 11 of the
13 claims, suppliers did not provide copies of the written orders. For example, when we
contacted a supplier to obtain a copy of the order for one of the claims, an official stated that the
supplier did not maintain copies of written orders after supplies had been dispensed. For the
remaining two claims, the suppliers had documentation of verbal orders from the physicians but
did not have written orders. The physician records did not contain copies of written orders or
references to them.

Incomplete Physician Orders

For 11 of the 24 claims, the DME suppliers had physician orders without required elements,
including the specific frequency of testing, the treating physician’s signature, and the date of the
physician signature:

   •   For nine claims, copies of the physician orders did not indicate the specific frequency of
       testing. Instead, they indicated “as directed” and/or the quantity of supplies (e.g., “50 test
       strips”).

   •   For three claims, copies of the physician orders did not have the physicians’ signatures.
       For example, for one claim, a supplier provided a copy of the physician order signed by a
       licensed practical nurse.

   •   For one claim, the copy of the physician order did not have the date of the physician’s
       signature. The physician’s records did not indicate that he had ordered the supplies.

Missing Proof-of-Delivery Records

Pursuant to 42 CFR § 424.57(c)(12), DME suppliers are required to maintain proof of delivery of
DME supplies provided to Medicare beneficiaries. The Manual, chapter 4, section 4.26, requires
that DME suppliers maintain proof-of-delivery documentation in their files for 7 years.

For 7 of the 100 sampled claims, suppliers did not maintain proof of delivery. When we
requested delivery records, the suppliers did not provide proof of delivery or provided printouts
from their computerized dispensing systems containing dispensing information that did not
correspond to the sampled claims. For example, for one claim, a supplier did not provide any


                                                  8
documentation. When we requested proof of delivery, the supplier informed us that it could not
locate the documentation.

EFFECT OF UNALLOWABLE CLAIMS

For 83 of the items in our sample, claims for test strips and/or lancets that we identified as high
utilization claims were not supported in accordance with Medicare documentation requirements.
As a result, NGS allowed $7,348 in Medicare Part B payments for unallowable claims. Of this
amount, NGS inappropriately paid $5,519 to suppliers.

For CY 2007, based on our sample results, we estimated that NGS inappropriately allowed for
payment $56,221,550 in claims for test strips and/or lancets that we identified as high utilization
claims. Of this amount, we estimated that NGS inappropriately paid $42,227,372 to suppliers.

LACK OF CONTROLS

NGS made improper payments to DME suppliers because NGS did not have controls to ensure
that claims for test strips and/or lancets complied with certain Medicare documentation
requirements. Specifically, NGS did not have system edits to identify, and review when
necessary, high utilization claims. In addition, NGS did not have system edits to identify
suppliers’ claims with overlapping service dates for the same beneficiary. This billing pattern
caused NGS to allow payment for claims when beneficiaries had not nearly exhausted previously
dispensed test strips and/or lancets.

NGS could have saved Medicare an estimated $42,227,372 for CY 2007 if it had had controls to
ensure that claims for test strips and/or lancets complied with certain Medicare documentation
requirements.

RECOMMENDATIONS

To help achieve potential savings for the Medicare program in future years, we recommend that
NGS:

   •   implement system edits to identify high utilization claims for test strips and/or lancets
       and work with CMS to develop cost-effective ways of determining which claims should
       be further reviewed for compliance with Medicare documentation requirements;

   •   implement system edits to identify claims for test strips and/or lancets that have
       overlapping service dates for the same beneficiary; and

   •   enforce Medicare documentation requirements for claims for test strips and/or lancets by
       (1) identifying DME suppliers with a high volume of high utilization claims,
       (2) performing prepayment reviews of those suppliers, and (3) referring them to the
       Office of Inspector General or CMS for further review or investigation when necessary.




                                                 9
AUDITEE COMMENTS

In its written comments on our draft report, NGS agreed with our recommendations and provided
information on actions that it had taken or planned to take to address the recommendations.

Regarding the first recommendation, NGS stated that it had implemented a service-specific edit
after a probe review in May 2008 found a high error rate for glucose monitor supplies.
Regarding the second recommendation, NGS stated that it is developing an edit to address the
problem of overlapping service dates on claims for individual beneficiaries. Regarding the third
recommendation, NGS described multiple efforts to enforce Medicare documentation
requirements, including identifying DME suppliers with a high volume of high utilization claims,
conducting prepayment reviews for glucose monitor supplies, and referring suppliers to other
Medicare contractors for further review. NGS’s comments are included in their entirety as
Appendix E.

                                      OTHER MATTERS

We identified issues with DME suppliers’ use of modifiers and unique physician identification
numbers for test strip and/or lancet claims.

INCORRECT MODIFIER

LCD L11530 requires that a Medicare claim for test strips and/or lancets include the KX
modifier for insulin-treated patients and the KS modifier for non-insulin-treated patients.

For 28 of the 100 sampled claims, DME suppliers submitted claims with incorrect modifiers.
For example, a claim from one supplier for test strips included the KS modifier rather than the
KX modifier when the physician order indicated that the beneficiary was being treated with
insulin. The physician’s medical records also supported that the beneficiary was being treated
with insulin.

INCORRECT UNIQUE IDENTIFICATION NUMBER

Section 1833(q)(1) of the Act requires that a Medicare claim include the unique identification
number for the referring physician.

For 5 of the 100 sampled claims, DME suppliers submitted claims with incorrect unique
identification numbers for referring physicians. For example, a claim from one supplier for test
strips included an incorrect unique identification number for the referring (i.e., ordering)
physician. The supplier received its medication refill request form from the referring physician’s
office before dispensing the supplies. However, the supplier incorrectly recorded the unique
identification number on the claim, which appeared to be a typographical error.




                                                10
APPENDIXES
                                                                                        Page 1 of 2


           APPENDIX A: FRAME SAMPLE DESIGN AND METHODOLOGY

OBJECTIVE

To accomplish our audit objective, we reviewed a sample of claims (error sample) to determine
whether Medicare documentation requirements had been met and to estimate the effect of
noncompliance. The error sample included Medicare Part B claims for home blood-glucose test
strip and/or lancet supplies (test strips and/or lancets) that National Government Services, Inc.
(NGS), allowed for payment with quantities that exceeded Medicare utilization guidelines based
on our analysis of claims (high utilization claims). To estimate the effect of noncompliance, it
was necessary to determine the total number of high utilization claims that NGS allowed for
payment. However, because high utilization claims were not easily identifiable, we could not
determine the total number of high utilization claims without significant time and effort.
Therefore, the objective of reviewing this sample was to estimate the number of high utilization
claims that NGS allowed for payment (frame sample).

POPULATION

The population consisted of high utilization claims. The population was limited to the Part B
claims included in the Centers for Medicare & Medicaid Services (CMS) National Claims
History file for calendar year (CY) 2007, updated as of December 2007.

SAMPLING FRAME

We extracted Medicare Part B claims for test strips and/or lancets (Healthcare Common
Procedure Coding System codes A4253 and A4259, respectively) with service dates ending in
CY 2007. We removed from the claims any service line in which the amount allowed for
payment was less than the lowest nationwide CY 2007 Medicare fee schedule amount ($32.74
for test strips and $10.83 for lancets). The result was a data file containing 2,920,352 claims for
test strips and/or lancets for 933,082 beneficiaries. This data file included claims with all
quantities of test strips and/or lancets.

To identify high utilization claims for test strips and/or lancets, we determined that an in-depth
analysis of each of the 2,920,352 claims in the data file was needed. However, because it was
not practical to analyze all of these claims, we used a random sample to estimate the total
number of and the amount allowed for payment for high utilization claims. The sampling frame
contained the 933,082 beneficiaries for whom the 2,920,352 test strip and/or lancet claims had
been submitted to NGS.

To identify high utilization claims for the frame sample, we analyzed the information submitted
by durable medical equipment (DME) suppliers on the claim form. We did not verify the
accuracy of the information. However, during our audit, we determined that some claims we had
identified as high utilization claims were in fact within the Medicare utilization guidelines based
on our review of the beneficiaries’ medical records and additional analysis of the claim
information. Because it was not practical to obtain and review the medical records for all
beneficiaries with test strip and/or lancet claims, we considered a claim to be a high utilization
                                                                                        Page 2 of 2


claim based solely on the claim information submitted by the DME supplier. Further, we did not
perform additional analysis of all claims. As a result, the sampling frame of high utilization
claims contained claims in which the quantity of test strips and/or lancets was within the
utilization guidelines.

SAMPLE DESIGN

We used a simple random sample.

SAMPLE UNIT

The sample unit was a beneficiary with one or more claims for test strips and/or lancets that NGS
allowed for payment.

SAMPLE SIZE

The sample size was 500 beneficiaries.

SOURCE OF RANDOM NUMBERS

We used the Office of Inspector General, Office of Audit Services (OAS), statistical software to
generate a set of random numbers.

METHOD OF SELECTING SAMPLE UNITS

To select the sample units, we consecutively numbered the sample units in the frame from 1 to
933,082. After generating 500 random numbers, we selected the corresponding frame items. No
frame sample unit was replaced.

CHARACTERISTICS TO BE MEASURED

For each sample unit, we obtained all the beneficiary’s claims for test strips and/or lancets and
analyzed the claim information submitted by DME suppliers to determine the number of high
utilization claims.

ESTIMATION METHODOLOGY

We used the OAS statistical software to estimate the total number of high utilization claims that
NGS allowed for payment, as well as the amount allowed for payment.
                   APPENDIX B: FRAME SAMPLE RESULTS AND ESTIMATES


                         Sample Results for Estimate of Total Number of Claims

   No. of
Beneficiaries
 With Test      No. of Claims
Strip/Lancet         for                                                     No. of Sampled
 Claims in      Beneficiaries        No. of         No. of Claims for       Beneficiaries That            No. of High
 Sampling       in Sampling       Beneficiaries         Sampled            Had High Utilization     Utilization Claims for
   Frame           Frame           in Sample         Beneficiaries               Claims             Sampled Beneficiaries

 933,082          2,920,352           500                   1,684                 163                       412


                      Sample Results for Estimate of Amount Allowed for Payment

     No. of
  Beneficiaries
   With Test         Amount Allowed                             Amount          No. of Sampled        Amount Allowed
  Strip/Lancet        for Payment by           No. of          Allowed for     Beneficiaries That    for High Utilization
   Claims in         NGS in Sampling        Beneficiaries      Payment in           Had High         Claims for Sampled
Sampling Frame             Frame             in Sample           Sample        Utilization Claims        Beneficiaries

    933,082           $295,517,387                500           $169,084             163                  $49,486


                                   Estimates for High Utilization Claims
                          (Limits Calculated for a 90-Percent Confidence Interval)


                                                                         Estimated
                                                     Estimated            Amount
                                                    Total No. of         Allowed for
                                                      Claims              Payment
                              Point estimate            768,860          $92,348,413
                              Lower limit               644,743           76,922,019
                              Upper limit               892,977          107,774,807
                                                                                                       Page 1 of 2


             APPENDIX C: ERROR SAMPLE DESIGN AND METHODOLOGY

POPULATION

The population consisted of Medicare Part B high utilization claims for test strips and/or lancets
that NGS allowed for payment. The population was limited to the Part B claims included in
CMS’s National Claims History file for CY 2007, updated as of December 2007.

SAMPLING FRAME

The number of sample units in the sampling frame was unknown and was estimated by the
sample described in Appendixes A and B.

SAMPLE DESIGN

We used a simple random sample.

SAMPLE UNIT

The sample unit was a high utilization claim for test strips and/or lancets.

SAMPLE SIZE

The sample size was 100 high utilization claims for test strips and/or lancets.

SOURCE OF RANDOM NUMBERS

We used the OAS statistical software to generate the random numbers.

METHOD OF SELECTING SAMPLE UNITS

To select the sample units, we consecutively numbered the test strip and/or lancet claims in the
data file from 1 to 2,920,352. Using the random numbers in the order in which they were
generated, we matched each random number to the corresponding test strip and/or lancet claim.
We analyzed the claim corresponding to the first randomly generated number to determine
whether the claim was within the Medicare utilization guidelines. If the claim exceeded the
utilization guidelines, we included it in the sample as a high utilization claim. If the claim did
not exceed the guidelines, we replaced it with the claim corresponding to the next randomly
generated number and analyzed the newly selected claim. We continued this process until we
had identified 100 high utilization claims. 1




1
 Of the 100 claims, 24 claims were within the utilization guidelines based on our review of the beneficiaries’
medical records and additional analysis of the claim information.
                                                                                     Page 2 of 2


ESTIMATION METHODOLOGY

Based on the results of this sample and the sample described in Appendixes A and B, we used
the OAS statistical software to estimate the (1) amount allowed for payment by NGS for claims
that we identified as high utilization claims and were not supported in accordance with Medicare
documentation requirements and (2) amount that NGS paid to DME suppliers for claims that we
identified as high utilization claims and were not supported in accordance with Medicare
documentation requirements.
               APPENDIX D: ERROR SAMPLE RESULTS AND ESTIMATES


                  Sample Results for Amount That NGS Allowed for Payment

                                          No. of                            Value of
                                       Claims With         Value of        Unallowable
                   Sample Size         Deficiencies        Sample           Amount
                         100                83              $11,655            $7,348


                 Sample Results for Amount That NGS Paid to DME Suppliers

                                          No. of                            Value of
                                       Claims With         Value of        Unallowable
                   Sample Size         Deficiencies        Sample           Amount
                         100               76 1             $8,730             $5,519



                                Estimates of Unallowable Amounts
                      (Limits Calculated for a 90-Percent Confidence Interval)

                                             Amount NGS               Amount NGS
                                              Allowed for             Paid to DME
                                               Payment                  Suppliers
                      Point estimate          $56,221,550              $42,227,372
                      Lower limit              43,122,050               31,945,161
                      Upper limit              69,321,049               52,509,583




1
 Payments for 76 of the 83 claims with deficiencies were made to DME suppliers. The payments for two claims
were made to the Medicare beneficiaries. For the remaining five claims, the payments were made to neither
suppliers nor the beneficiaries because the beneficiaries were required to pay deductibles.
                                                                                                            Page 1 of 4


                                 APPENDIX E: AUDITEE COMMENTS 




f~National GoVernme""itt
  ...-          ServIc.... 	                                                             Medicare
    NationAl V;1Wm""",! So-rY'io:eo,. I",.
    11115 Kn""ROiId
    Indianopoll!. )nd;,n;, 462!50-1936
    II eMS   eoor",,-w Agm/


    Report Number: A-()9..()8-00044

    Lori A. Ahlstrand
    Regionallnspcctor General for Audi Services
    Office of Aud it Services, Region IX
    90-7'" Street. Suite 3--650
    San Francisco, CA 94103

    Dear Ms. Ahlstrand:

    National Government Services (NGS) appreciates the opportunity to review and comment on the
    above referenced draft audit report. Responses \0 the recommendations made by the Qffice of
    Inspector General are included below.

    1. 	     Recommendation
             Implement system edits to identify high utilization daims for test strips and/or lancets and
             work with eMS to develop cost-effective ways of determining which claims should be
             fw:thCf reviewed for compliance with Medicare dOCUJncnt<>tion requirements.

             NGS Response:
             We agree with the DIG's recumrnendation. Glucose monitor suppUes, test strips and
             lancets, have been a focus of the National Govenunenl Services (NGS) Jurisdiction B DME
             MAC medical review (MR) activities since the MR function returned to the DME MAC in
             March 2008. The data analysis that we perform to establish our Medical Rev iew Strategy
             gives strong weight to the [act that glucose monitor supplies are high in terms of allowed
             charges (currently the second highest policy group in Jurisdiction B) and that they have
             been consistently at or nea.r the top in terms of aRT errors (currently second highest).
             They have been the highest priority item for our MR department as evidenced by the fact
             that, over the past two and 11 half years, they have represented the greatest volume of
             developed and reviewed claims.

             NGS' initiated a widespread (i.e., service-specific) probe review of glucose monitor supplies
             in M.-.y 2008. The high crror rate found on that review resulted in OUI establishing a service­
             specific edit for glucose monitor supplies which has continued to the present. We have
             prioritized our widespread review activities by focusing on those claims that represented
             the most egregious overutilization.

             Our ability to thoroughly address the problem of overutilization of glucose monitor
             supplies is limited by the resourc~s that an available to us. Jurisdiction B receives


                                                                                               CAIS/
                                                                                       -",....,..·_-1
                                                                                                            Page 2 of 4




       approximately 3.6 million claims per year for glucose moni tor supplie~. Based on our data
       analysis, approximately 20% of those represent claims for quantities of test strips and/or
       lancets that exceed the utilization guidelines in the Len. Based on our funding. thE! total
       number of claims on which we arc able to perform complex manual MR for.wl DMEPOS
       items is a small fraction of the test strip and lancet claims that represent suspected
       overutilization.

2. 	   Recommendation
       Implement system edits to identify claims for test strips and/or lancets that have
       overlapping service dates for the same beneficial)'.

       NGS Response:
       We agree with the D IG's recommendation. Up to this time, OUT edits have focused on
       individuaJ claims that exceed the Utili7-<1tion guidelines defined in the Glucose Monitors
       Local Coverage Determination (LCD). However, we arc currently in the pr()(;.'e;S of
       developing an edit that will address the problem of overlapping dates of services on claims
       for individual beneficiaries.

       in addition to implementation of system edits, our Provider Outreach and Education WOE)
       department ca:ently sent a letter to Medicare beneficiaries who received their supplies from
       thrL.oe or more suppliers. Beneficiaries with multiple supplierti are very likely to have claims
       wi th overlapping dates of service.

3. 	   Recommendation
       Enforce Medicare documentation Tequirements for claims for test strips and/or lancets by
       (1) identifying DME suppliers with a lUgh \'olume of high utili~tion claims, (2) performing
       prepayment reviews of those DME suppliers, and (3) referring them to the Office of
       Inspector General or CMS for further review or investigation when necessary.

       NGS Response:
       We agree with the O IG's recommendations. We have identified high volume suppliers,
       especially those that rep resented significan t owrutilization, <IS t<lrgets for supplier-specific
       reviews.

       Our reviews of claims for glucose monitor supplies, both widespread and supplicr-spe<ific,
       have been conducted on a prepayment basis to maximize efficiency and to keep Medicare
       {rom paying for items that arc not medically necessary and/or do not meet other
       documentation requirements.

       Juri~diction B MR also refers to other contractors when appropriate.
           • 	 We refer supplicrs 10 Ihe rsc if we identify suspected fraudulent behavior. The PSC
               determines when it is appropriate to refer a case to the Office of the Inspector
               General.
                                                                                                        Page 3 of 4




          • 	 We have referred one largt' volume national supplier to the Na tional Supplier
              Clearinghouse for consideration of revocation of its supplier number because it has
              repeatedly not responded to our requests for documentation.

          • 	 We have recommended that the Recovery Audit Contractor (RAe) consid...r review
              of high volume problem suppliers. Since the RAe has more ability to expand their
              medical review resources and thus address a much higher volume of claims, its
              review would have more of an impact on suppliers and would more likely result in
              a change in their behavior.

       In addition to our MR activities, NGS is addressing the problem of overntilization through a
       number of other interventions. Our POE Department has conclUded webinars and has a
       web-based self-study course to educate all suppliers. Our POE department provides
       individualized education to suppliers who have been the subject of supplier-speci£ic
       reviews. A letter from the Jurisdiction B med ical director to prescribing physicians is
       available on ou r web site to assist supplien; in educating physicians concerning Medicare
       policy.

4. 	   Other Matters -Incorred Modifier
       LCD L11530 requires that a Medicare claim for test strips andJor lancets include the KX
       modifier for insulin_treated patienl$ and the K$ modifier for non_in_~ulin_tT'eated patients.
       For 29 of the 100 sampled claims, DME suppliers submitted claims with incorrect modifiers.

       NGS Response:
       We have identified similar errors in the reviews that we have conducted. We have included
       education on this issue with individual sup pliers as a follow-u p to supplier-specific
       reviews. He has included information about the correct use of modifiers in our general
       education on glucose monitors supplies.


5. 	   Other Mattel'S- Incorrect Unique Identifkation N umber
       Section 1833(q) (1) of the Act requires thai a Medicare claim include the unique
       identification number for the refer ring physician. For 5 of the 100 sampled claims, DME
       suppliers submitted claims with incorrect unique identification numbers for referring
       physicians.

       NGS Response:
       Education concerning the importance of accuracy in reporting the National Provider
       Identifier (NPI) for referring physiciaru> is a routine part of our general Provider Education
       and Outreach activitiel.
                                                                                                  Page 4 of 4




In conclusion, the Jurisdiction B DME MAC is working to address all of the recommendations
outlined in the DIG report - within the scope of our available resources. We will continue with
these efforts and look for additional interventions to help address the prubl~ with
ovcrutilization of glucose test strips and lancets.




David Barnett
Jurisdiction B DME MAC Project Manager
